OIG Investigative Reports, Indictment of Jennifer L. Sherman - One count Mail Fraud, One count Federal Studend Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
For Release:
December 5, 2007
U.S. Department of Justice
United States Attorney
Northern District of Ohio
Gregory A.White
United States Attorney
James C. Lynch
Assistant U.S. Attorney
(216) 622-3846
Indictment of Jennifer L. Sherman - One count Mail Fraud, One count Federal
Studend Aid Fraud
Gregory A. White, United States Attorney for the Northern District of Ohio,
announced today that a federal grand jury in Cleveland, Ohio, returned an indictment
against Jennifer L. Sherman of Fairview Park, Ohio, charging her with one count
of Mail Fraud and one count of Federal Student Aid Fraud.
The indictment charges that from approximately August 2006, to about May of
2007, Sherman defrauded the United States Department of Education and Lakeland
Community College by falsely applying for admission to Lakeland in the names
of friends and relatives of Sherman as well as fraudulently applying for federally
guaranteed student aid on their behalf. The Indictment charges that, in fact,
the purported students never intended to attend Lakeland, and that Sherman used
the purported students to obtain financial aid monies for her personal benefit.
It was charged that Sherman caused financial aid refunds monies to be mailed
to the students at addresses she controlled in a total amount of $108,995.
The actual sentence in this case, upon conviction, will be determined by the
Court under the mandatory Federal Sentencing Guidelines which depend upon a
number of factors unique to each case, including the defendant's prior criminal
record, if any, the defendant's role in the offense and the unique characteristics
of the violation. In all cases the sentence will not exceed the statutory maximum
and in most cases it will be less than the maximum.
The case is being prosecuted by Assistant United States Attorney James C. Lynch,
following an investigation by the Office of the Inspector General, Department
of Education, Chicago, Illinois.
An indictment is only a charge and is not evidence of guilt. A defendant is
entitled to a fair trial in which it is the government’s burden to prove guilt
beyond a reasonable doubt.
#####
Top
Printable view
Share this page
Last Modified: 12/10/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov